                            Federal Register / Vol. 67, No. 192 / Thursday, October 3, 2002 / Notices                                       62057

Market Committee at its meeting held                    Requests to address the Commission              296–4669 or e-mail info@bioethics.gov).
on August 13, 2002.1                                  should be made in writing and should              The public may also express comments
  The Federal Open Market Committee                   include the name, address, telephone number       during the time set aside for this
seeks monetary and financial conditions               and business or professional affiliation of the   purpose, beginning at 5:15 p.m. ET, on
                                                      interested party. Individuals or groups
that will foster price stability and                  addressing similar issues are encouraged to       Thursday, October 17, 2002. Comments
promote sustainable growth in output.                 combine comments and make their request to        will be limited to no more than five
To further its long-run objectives, the               address the Commission through a single           minutes per speaker or organization.
Committee in the immediate future                     representative. The allocation of time for        Please give advance notice of such
seeks conditions in reserve markets                   remarks may be adjusted to accommodate the        statements to Ms. Gianelli at the phone
consistent with maintaining the federal               level of expressed interest. Written requests     number given above, and be sure to
funds rate at an average of around 13⁄4               should be faxed to (301) 443–0259.                include name, affiliation, and a brief
percent.                                                Anyone who has interest in joining any          description of the topic or nature of the
  By order of the Federal Open Market                 portion of the meeting or who requires
                                                                                                        statement.
                                                      additional information about the Commission
Committee, September 27, 2002.                        should contact: Ms. Betty Lam or Mr. Erik F.      FOR FURTHER INFORMATION CONTACT:
Vincent R. Reinhart,                                  Wang, Office of the White House Initiative on     Diane Gianelli, 202/296–4669, or visit
                                                      AAPIs, Parklawn Building, Room 10–42,             http://www.bioethics.gov.
Secretary, Federal Open Market Committee.
                                                      5600 Fishers Lane, Rockville, MD 20857,             Dated: September 26, 2002.
[FR Doc. 02–25142 Filed 10–02–02; 8:45 am]            Telephone (301) 443–2492. Anyone who
BILLING CODE 6210–01–S                                requires special assistance, such as sign         Dean Clancy,
                                                      language interpretation or other reasonable       Executive Director, The President’s Council
                                                      accommodations, should contact Mr. Wang           on Bioethics.
DEPARTMENT OF HEALTH AND                              no later than October 4, 2002.                    [FR Doc. 02–25117 Filed 10–2–02; 8:45 am]
HUMAN SERVICES                                          Dated: September 27, 2002.                      BILLING CODE 4150–24–P

                                                      Christopher J. McCabe,
White House Initiative on Asian                       Director, Office of Intergovernmental Affairs.
Americans and Pacific Islanders                                                                         DEPARTMENT OF HEALTH AND
                                                      [FR Doc. 02–25118 Filed 10–2–02; 8:45 am]         HUMAN SERVICES
President’s Advisory Commission;
                                                      BILLING CODE 4165–15–P
Notice of Meeting
                                                                                                        Office of Inspector General
  In accordance with section 10(a)(2) of
the Federal Advisory Committee Act                    DEPARTMENT OF HEALTH AND                          Draft OIG Compliance Program
(Public Law 92–463), announcement is                  HUMAN SERVICES                                    Guidance for Pharmaceutical
made of the following National                                                                          Manufacturers
Advisory body scheduled to conduct a                  Public Meeting of the President’s
                                                                                                        AGENCY: Office of Inspector General
public meeting during the month of                    Council on Bioethics
                                                                                                        (OIG), HHS.
October 2002.                                         AGENCY: The President’s Council on                ACTION: Notice and comment period.
   Name: President’s Advisory Commission              Bioethics, HHS.
on Asian Americans and Pacific Islanders              ACTION: Notice.                                   SUMMARY:    This Federal Register notice
(Commission).                                                                                           seeks the comments of interested parties
  Date and Time: October 11, 2002; 12:30              SUMMARY:    The President’s Council on            on draft compliance guidance
a.m.–5 p.m. HST.                                      Bioethics will hold its seventh meeting,          developed by the Office of Inspector
  Location: Hawaii State Capitol, State               at which it will discuss, among other             General (OIG) for the pharmaceutical
Capitol Auditorium, 415 S. Beretania Street,          things, technological enhancements of             industry. Through this notice, the OIG
Honolulu, HI 96813.                                   human memory; the use of assisted                 is setting forth its general views on the
  The meeting is open to the public.
  The President’s Advisory Commission on
                                                      reproduction and other technologies               value and fundamental principles of
Asian Americans and Pacific Islanders                 (including PGD) to choose the sex of              compliance programs for
(AAPIs) will conduct a public meeting on              children; and a presentation by Ms. Suzi          pharmaceutical manufacturers and the
October 11, 2002, from 12:30 p.m. to 5 p.m.           Leather, chair of the Human                       specific elements that pharmaceutical
HST inclusive.                                        Fertilisation and Embryology Authority            manufacturers should consider when
  Agenda items will include, but will not be          (HFEA) of the United Kingdom on how               developing and implementing an
limited to: testimony from community-based            the UK regulates infertility clinics and          effective compliance program.
organizations and individuals; testimony              embryo research. The Council may also             DATES: To assure consideration,
from federal, state and local agencies;               touch on subjects discussed at past
comments from the public; administrative                                                                comments must be delivered to the
tasks; deadlines; and upcoming events.
                                                      meetings, including human cloning,                address provided below by no later than
  The purpose of the Commission is to                 embryonic stem cells, and the                     5 p.m. on December 2, 2002.
advise and make recommendations to the                patentability of human organisms.                 ADDRESSES: Please mail or deliver
President on ways to increase opportunities           DATES: The meeting will take place                written comments to the following
for and improve the quality of life of                Thursday, October 17, 2002, from 9 a.m.           address: Office of Inspector General,
approximately thirteen million AAPIs living           to 6 p.m. ET; and Friday, October 18,             Department of Health and Human
in the United States and the U.S.-associated          2002, from 8:30 a.m. to 12:15 p.m. ET.            Services, Attention: OIG–8–CPG, Room
Pacific Island jurisdictions, especially those
that are the most underserved.                        ADDRESSES: Hotel Monaco, 700 F Street,            5246, Cohen Building, 330
                                                      NW., Washington, DC 20004.                        Independence Avenue, SW.,
   1 Copies of the Minutes of the Federal Open           Public Comments: The meeting                   Washington, DC 20201.
Market Committee meeting on August 13, 2002,          agenda will be posted at http://                     We do not accept comments by
which includes the domestic policy directive issued   www.bioethics.gov. Members of the                 facsimile (FAX) transmissions. In
at the meeting, are available upon request to the     public may submit written statements              commenting, please refer to file code
Board of Governors of the Federal Reserve System,
Washington, DC 20551. The minutes are published
                                                      for the Council’s records. Please submit          OIGB8–CPG. Comments received timely
in the Federal Reserve Bulletin and in the Board’s    statements to Ms. Diane Gianelli,                 will be available for public inspection as
annual report.                                        Director of Communications (tel. 202/             they are received, generally beginning
62058                 Federal Register / Vol. 67, No. 192 / Thursday, October 3, 2002 / Notices

approximately 2 weeks after publication     known as the Health Care Financing          document. The OIG will consider all
of a document, in Room 5541 of the          Administration).                            comments that are received within the
Office of Inspector General at 330             This draft guidance for                  above-cited time frame, incorporate any
Independence Avenue, SW.,                   pharmaceutical manufacturers contains       specific recommendations as
Washington, DC 20201 on Monday              seven elements that have been widely        appropriate, and prepare a final version
through Friday of each week from 8 a.m.     recognized as fundamental to an             of the guidance thereafter for
to 4:30 p.m.                                effective compliance program:               publication in the Federal Register. The
                                               • Implementing written policies and      final version of the guidance will be
FOR FURTHER INFORMATION CONTACT:
                                            procedures;                                 available though the OIG Web site at
Mary E. Riordan or Nicole C. Hall,             • Designating a compliance officer       http://oig.hhs.gov.
Office of Counsel to the Inspector          and compliance committee;
General, (202) 619–2078.                       • Conducting effective training and      Draft Compliance Program Guidance
                                            education;                                  for Pharmaceutical Manufacturers
SUPPLEMENTARY INFORMATION:
                                               • Developing effective lines of          I. Introduction
Background                                  communication;                                 The Office of Inspector General (OIG)
                                               • Conducting internal monitoring and
   Compliance program guidance is a                                                     of the Department of Health and Human
                                            auditing;
major initiative of the OIG in its effort                                               Services is continuing in its efforts to
                                               • Enforcing standards through well-
to engage the health care community in                                                  promote voluntary compliance
                                            publicized disciplinary guidelines; and
preventing and reducing fraud and              • Responding promptly to detected        programs for the health care industry.
abuse in Federal health care programs.                                                  This compliance guidance is intended
                                            problems and undertaking corrective
The purpose of the compliance program                                                   to assist companies that develop,
                                            action.
guidance is to encourage the use of            These elements are included in           manufacture, market, and sell
internal controls to efficiently monitor    previous guidances issued by the OIG.       pharmaceutical drugs or biological
adherence to applicable statutes,           As with previously-issued guidances,        products (pharmaceutical
regulations and program requirements.       this draft compliance program guidance      manufacturers) in developing and
In the last several years, the OIG has                                                  implementing internal controls and
                                            represents the OIG’s suggestions on how
developed and issued compliance                                                         procedures that promote adherence to
                                            pharmaceutical manufacturers can
program guidance directed at the                                                        applicable statutes, regulations, and
                                            establish internal controls to ensure
following segments of the health care                                                   requirements of the Federal health care
                                            adherence to applicable rules and
industry: The hospital industry; home                                                   programs 1 and in evaluating and, as
                                            program requirements. The contents of
health agencies; clinical laboratories;                                                 necessary, refining existing compliance
                                            this guidance should not be viewed as
third-party medical billing companies;                                                  programs.
                                            mandatory or as an exclusive discussion        This guidance provides the OIG s
the durable medical equipment,              of the advisable elements of a
prosthetics, orthotics and supply                                                       views on the fundamental elements of
                                            compliance program. The document is         pharmaceutical manufacturer
industry; Medicare+Choice                   intended to present voluntary guidance
organizations offering coordinated care                                                 compliance programs and principles
                                            to the industry and not represent           that each pharmaceutical manufacturer
plans; hospices; nursing facilities; and    binding standards for pharmaceutical
individual and small group physician                                                    should consider when creating and
                                            manufacturers.                              implementing an effective compliance
practices. The OIG has also issued draft       Although the June 11, 2001,
guidance directed at ambulance                                                          program. This guide is not a compliance
                                            solicitation notice requested               program. Rather, it is a set of guidelines
suppliers. Copies of these compliance       information and recommendations for
program guidances can be found on the                                                   that pharmaceutical manufacturers
                                            developing a compliance program             should consider when developing and
OIG Web site at http://oig.hhs.gov/         guidance for the pharmaceutical
fraud/complianceguidance.html.                                                          implementing a compliance program or
                                            industry generally, the OIG has since       evaluating an existing one. For those
Developing Draft Compliance Program         decided to focus this draft compliance      manufacturers with an existing
Guidance for the Pharmaceutical             program guidance specifically on            compliance program, this guidance may
Industry                                    pharmaceutical manufacturers and not        serve as a benchmark or comparison
                                            to address other segments of the            against which to measure ongoing
   On June 11, 2001, the OIG published      pharmaceutical industry, such as retail     efforts.
a solicitation notice seeking information   pharmacies. This decision was reached,         A pharmaceutical manufacturer’s
and recommendations for developing          in part, in response to comments from       implementation of an effective
compliance program guidance for the         both pharmaceutical manufacturers and       compliance program may require a
pharmaceutical industry (66 FR 31246).      retail pharmacy chains, suggesting that     significant commitment of time and
In response to that solicitation notice,    the differences between pharmaceutical      resources by various segments of the
the OIG received eight comments from        manufacturers and retail pharmacy           organization. In order for a compliance
various outside sources. In developing      chains, both in terms of operational        program to be effective, it must have the
this draft guidance for formal public       issues and compliance issues, are
comment, we have considered those           significant enough to warrant                 1 The term ‘‘Federal health care programs,’’ as
comments, as well as previous OIG           addressing them separately.                 defined in 42 U.S.C. 1320.a–7b(f), includes any plan
publications, such as other compliance                                                  or program that provides health benefits, whether
program guidances and Special Fraud         Public Input and Comment in                 directly, through insurance, or otherwise, which is
Alerts. In addition, we have taken into     Developing Final Guidance                   funded directly, in whole or in part, by the United
                                                                                        States government or any state health plan (e.g.,
account past and ongoing fraud                In an effort to ensure that all parties   Medicaid or a program receiving funds from block
investigations conducted by the OIG’s       have an opportunity to provide input        grants for social services or child health services).
Office of Investigations and the            into the OIG’s guidance, we are             In this document, the term ‘‘Federal health care
                                                                                        program requirements’’ refers to the statutes,
Department of Justice, and have             publishing this guidance in draft form.     regulations and other rules governing Medicare,
consulted with the Centers for Medicare     We welcome any comments from                Medicaid, and all other Federal health care
and Medicaid Services (CMS) (formerly       interested parties regarding this           programs.
                           Federal Register / Vol. 67, No. 192 / Thursday, October 3, 2002 / Notices                               62059

support and commitment of senior                    of the company’s commitment to honest         manufacturers: (1) Integrity of data used
management and the company’s                        and responsible corporate conduct;            by state and Federal governments to
governing body. In turn, the corporate                 • An increased likelihood of               establish payment; (2) kickbacks and
leadership should strive to foster a                preventing, or at least identifying, and      other illegal remuneration; and (3)
culture that promotes the prevention,               correcting unlawful and unethical             compliance with laws regulating drug
detection, and resolution of instances of           behavior at an early stage;                   samples. The risk areas are discussed in
problems. Although an effective                        • A mechanism to encourage                 greater detail in section II.B.2. below.
compliance program may require a                    employees to report potential problems        The compliance measures adopted by a
reallocation of existing resources, the             and allow for appropriate internal            pharmaceutical manufacturer should be
long-term benefits of establishing a                inquiry and corrective action; and            tailored to fit the unique environment of
compliance program significantly                       • Through early detection and              the company (including its
outweigh the initial costs.                         reporting, minimizing any financial loss      organizational structure, operations and
  In a continuing effort to collaborate             to the government and any                     resources, as well as prior enforcement
closely with the pharmaceutical                     corresponding financial loss to the           experience). In short, the OIG
industry, the OIG published a notice in             company.                                      recommends that each pharmaceutical
the Federal Register soliciting                        The OIG recognizes that the                manufacturer should adapt the
comments and recommendations on                     implementation of a compliance                objectives and principles underlying the
what should be included in this                     program may not entirely eliminate            measures outlined in this guidance to its
compliance program guidance.2 In                    improper conduct from the operations
                                                                                                  own particular circumstances.
addition to considering the comments                of a pharmaceutical manufacturer.
received in response to that solicitation           However, a good faith effort by the           II. Compliance Program Elements
notice, in drafting this guidance we                company to comply with applicable
                                                                                                  A. The Basic Compliance Elements
reviewed previous OIG publications,                 statutes and regulations as well as
including OIG advisory opinions, safe               Federal health care program                      The OIG believes that every effective
harbor regulations (including the                   requirements, demonstrated by an              compliance program must begin with a
preambles) relating to the Federal anti-            effective compliance program,                 formal commitment by the
kickback statute,3 Special Fraud Alerts,            significantly reduces the risk of             pharmaceutical manufacturer’s board of
as well as reports issued by the OIG’s              unlawful conduct and any penalties that       directors or other governing body.
Office of Audit Services and Office of              result from such behavior.                    Evidence of that commitment should
Evaluation and Inspections relevant to                                                            include the allocation of adequate
                                                    A. Application of Compliance Program          resources, a timetable for the
the pharmaceutical industry. (These                 Guidance
materials are available on the OIG Web                                                            implementation of the compliance
page at http://oig.hhs.gov.) In addition,              Given the wide diversity within the        measures, and the identification of an
we relied on the experience gained from             pharmaceutical industry, there is no          individual to serve as a compliance
investigations of pharmaceutical                    single best pharmaceutical manufacturer       officer to ensure that each of the
manufacturers conducted by OIG’s                    compliance program. The OIG                   recommended and adopted elements is
Office of Investigations, the Department            recognizes the complexities of this           addressed. Once a commitment has
of Justice, and the state Medicaid Fraud            industry and the differences among            been undertaken, a compliance officer
Control Units.                                      industry members. Some                        should immediately be chosen to
                                                    pharmaceutical manufacturers are small        oversee the implementation of the
A. Benefits of a Compliance Program                 and may have limited resources to             compliance program.
   The OIG believes a comprehensive                 devote to compliance measures.                   The elements listed below provide a
compliance program provides a                       Conversely, other companies are well-         comprehensive and firm foundation
mechanism that addresses the public                 established, large multi-national             upon which an effective compliance
and private sectors’ mutual goals of                corporations with a widely dispersed          program may be built. Further, they are
reducing fraud and abuse; enhancing                 work force. Some companies may have           likely to foster the development of a
health care provider operational                    well-developed compliance programs            corporate culture of compliance. The
functions; improving the quality of                 already in place; others only now may         OIG recognizes that full implementation
health care services; and reducing the              be initiating such efforts. The OIG also      of all elements may not be immediately
cost of health care. Attaining these goals          recognizes that pharmaceutical                feasible for all pharmaceutical
provides positive results to the                    manufacturers are subject to extensive        manufacturers. However, as a first step,
pharmaceutical manufacturer, the                    regulatory requirements in addition to        a good faith and meaningful
government, and individual citizens                 fraud and abuse-related issues and that       commitment on the part of the
alike. In addition to fulfilling its legal          many pharmaceutical manufacturers             company’s management will
duty to avoid submitting false or                   have addressed these obligations              substantially contribute to the program’s
inaccurate pricing or rebate information            through compliance programs.                  successful implementation. As the
to any Federal health care program or               Accordingly, the OIG strongly                 compliance program is implemented,
illegal marketing activities, a                     encourages pharmaceutical                     that commitment should filter down
pharmaceutical manufacturer may gain                manufactures to develop and implement         through management to every employee
important additional benefits by                    or refine (as necessary) compliance           and contractor of the pharmaceutical
voluntarily implementing a compliance               elements that uniquely address the areas      manufacturer, as applicable for the
program. The benefits may include:                  of potential problems, common concern,        particular individual.
   • A concrete demonstration to                    or high risk that apply to their own             At a minimum, a comprehensive
employees and the community at large                companies (or, as applicable, to the U.S.     compliance program should include the
                                                    operations of their companies).               following elements:
  2 See 66 FR 31246 (June 11, 2001), ‘‘Notice for
                                                       For example, although they are not            (1) The development and distribution
Solicitation of Information and Recommendations
for Developing a Compliance Program Guidance for    exhaustive of all potential risk areas, the   of written standards of conduct, as well
the Pharmaceutical Industry.’’                      OIG has identified three major potential      as written policies, procedures and
  3 42 U.S.C. 1320a–7b(b).                          risk areas for pharmaceutical                 protocols that verbalize the company’s
62060                  Federal Register / Vol. 67, No. 192 / Thursday, October 3, 2002 / Notices

commitment to compliance (e.g., by           procedures should be provided to all        potential risk areas for pharmaceutical
including adherence to the compliance        employees who are affected by these         manufacturers.
program as an element in evaluating          policies, and to any agents or                 a. Integrity of Data Used to Establish
management and employees) and                contractors who may furnish services        Government Reimbursement. Many
address specific areas of potential fraud    that impact Federal health care             Federal and state health care programs
and abuse, such as the reporting of          programs (e.g., contractors involved in     establish reimbursement rates for
pricing and rebate information to the        the co-promotion of a manufacturer’s        pharmaceuticals, either prospectively or
Federal health care programs, and sales      products).                                  retrospectively, using price and sales
and marketing practices;                                                                 data directly or indirectly furnished by
   (2) The designation of a compliance       1. Code of Conduct                          pharmaceutical manufacturers. The
officer and other appropriate bodies            Although a clear statement of detailed   government sets reimbursement with
(e.g., a corporate compliance committee)     and substantive policies and procedures     the expectation that the data provided
charged with the responsibility for          is at the core of a compliance program,     are complete and accurate. The knowing
developing, operating, and monitoring        the OIG recommends that                     submission of false, fraudulent, or
the compliance program, and with             pharmaceutical manufacturers also           misleading information is actionable. A
authority to report directly to the board    develop a general corporate statement of    pharmaceutical manufacturer may be
of directors and/or the president or         ethical and compliance principles that      liable under the False Claims Act,4 if
CEO;                                         will guide the company’s operations.        government reimbursement (including,
   (3) The development and                   One common expression of this               but not limited to, reimbursement by
implementation of regular, effective         statement of principles is the code of      Medicare and Medicaid) for the
education and training programs for all      conduct. The code should function in        manufacturer s product depends, in
affected employees;                          the same fashion as a constitution, i.e.,   whole or in part, on information
   (4) The creation and maintenance of       as a document that details the              generated or reported by the
an effective line of communication           fundamental principles, values, and         manufacturer, directly or indirectly, and
between the compliance officer and all       framework for action within an              the manufacturer has knowingly (as
employees, including a process (such as      organization. The code of conduct for a     defined in the False Claims Act) failed
a hotline or other reporting system) to      pharmaceutical manufacturer should          to generate or report such information
receive complaints or questions, and the     articulate the company’s expectations of    completely and accurately.
adoption of procedures to protect the        commitment to compliance by                 Manufacturers may also be liable for
anonymity of complainants and to             management, employees, and agents,          civil money penalties under various
protect whistle blowers from retaliation;    and should summarize the broad ethical      laws, rules and regulations. Moreover,
   (5) The use of audits and/or other risk   and legal principles under which the        in some circumstances, inaccurate or
evaluation techniques to monitor             company must operate. Unlike the more       incomplete reporting may be probative
compliance, identify problem areas, and      detailed policies and procedures, the       of liability under the Federal anti-
assist in the reduction of identified        code of conduct should be brief, easily     kickback statute.
problems;                                    readable, and cover general principles         Where appropriate, manufacturers
   (6) The development of policies and       applicable to all employees.                reported prices should accurately take
procedures addressing the non-                  As appropriate, the OIG strongly         into account price reductions, rebates,
employment or retention of excluded          encourages the participation and            up-front payments, coupons, goods in
individuals or entities, and the             involvement of the pharmaceutical           kind, free or reduced price services,
enforcement of appropriate disciplinary      manufacturer s board of directors, CEO,     grants, or other price concessions or
action against employees or contractors      president, members of senior                similar benefits offered to some or all
who have violated company policies           management, and other personnel from        purchasers. If a discount, price
and procedures and/or applicable             various levels of the organizational        concession, or similar benefit is offered
Federal health care program                  structure in the development of all         on purchases of multiple products, the
requirements; and                            aspects of the compliance program,          discount, price concession, or similar
   (7) The development of policies and       especially the code of conduct.             benefit should be fairly apportioned
procedures for the investigation of          Management and employee involvement         among the products. Underlying
identified instances of non-compliance       in this process communicates a strong       assumptions used in connection with
or misconduct. These should include          and explicit commitment by                  reported prices should be reasoned,
directions regarding the prompt and          management to foster compliance with        consistent, and appropriately
proper response to detected offenses,        applicable Federal health care program      documented, and pharmaceutical
such as the initiation of appropriate        requirements. It also communicates the      manufacturers should retain all relevant
corrective action and preventive             need for all employees to comply with       records reflecting reported prices and
measures.                                    the organization’s code of conduct and      efforts to comply with Federal health
                                             policies and procedures.                    care program requirements.
B. Written Policies and Procedures                                                          Given the importance of the Medicaid
  In developing a compliance program,        2. Specific Risk Areas                      Rebate Program, as well as other
every pharmaceutical manufacturer               This section addresses the following     programs that rely on Medicaid Rebate
should develop and distribute written        major risk areas for pharmaceutical         Program benchmarks (such as the 340B
compliance standards, procedures, and        manufacturers: (1) Integrity of data used
practices that guide the company and         by state and Federal governments to            4 The False Claims Act (31 U.S.C. 3729–33)

the conduct of its employees in day-to-      establish payment; (2) kickbacks and        prohibits knowingly presenting (or causing to be
                                                                                         presented) to the Federal government a false or
day operations. These policies and           other illegal remuneration; and (3)         fraudulent claim for payment or approval.
procedures should be developed under         compliance with laws regulating drug        Additionally, it prohibits knowingly, making, or
the direction and supervision of the         samples. This section focuses on areas      using (or causing to be made or used) a false record
                                                                                         or statement to get a false or fraudulent claim paid
compliance officer, the compliance           that are currently of most concern to the   or approved by the Federal government or its
committee, and operational managers.         enforcement community and is not            agents, like a carrier, other claims processor, or state
At a minimum, the policies and               intended to be exhaustive of all            Medicaid program.
                             Federal Register / Vol. 67, No. 192 / Thursday, October 3, 2002 / Notices                                   62061

Program 5), manufacturers should pay                    for an OIG advisory opinion using the        themselves, and have their sales and
particular attention to ensuring that they              procedures set out at 42 CFR part 1008.      marketing personnel familiarize
are calculating Average Manufacturer                       The following discussion addresses        themselves, with the discount safe
Price and Best Price accurately and that                key areas of potential risk under the        harbor at 42 CFR 1001.952(h). In
they are paying appropriate rebate                      anti-kickback statute arising from           particular, manufacturers should pay
amounts for their drugs.6                               pharmaceutical manufacturers                 attention to the safe harbor requirements
   In sum, pharmaceutical                               relationships with three groups:             applicable to ‘‘sellers’’ and ‘‘offerors’’ of
manufacturers are responsible for                       purchasers; physicians and other health      discounts. Under the safe harbor, sellers
ensuring the integrity of data they                     care professionals; and sales agents.        and offerors have specific obligations
generate that is used for government                    This discussion is intended to be            that include (i) informing a customer of
reimbursement purposes.                                 illustrative, not exhaustive, of potential   any discount and of the customer’s
   b. Kickbacks and Other Illegal                       risk areas.                                  reporting obligations with respect to
Remuneration. Pharmaceutical                               (1) Relationships with Purchasers. (a)    that discount and (ii) refraining from
manufacturers, as well as their                         Discounts and Other Terms of Sale.           any action that would impede a
employees and agents, should be aware                   Pharmaceutical manufacturers offer           customer’s ability to comply with the
of the Federal anti-kickback statute, and               customers a variety of price concessions     safe harbor. To fulfill the safe harbor
the constraints it places on the                        and similar benefits to induce the           requirements, manufacturers will need
marketing and promotion of products                     purchase of their products. Such             to know how their customers submit
reimbursable by the Federal health care                 inducements potentially implicate the        claims to the Federal health care
programs. The anti-kickback statute is a                anti-kickback statute if the products are    programs (e.g., whether the customer is
criminal prohibition against payments                   reimbursable to the customers, in whole      a managed care, cost-based, or charge-
(in any form, whether the payments are                  or in part, directly or indirectly, by any   based biller).
direct or indirect) made purposefully to                of the Federal health care programs.            Other terms of sale. Any
induce or reward referrals of Federal                   Moreover, price concessions and similar      remuneration provided as part of a sale,
health care business. The anti-kickback                 benefits offered to a wholesaler             other than a price reduction covered by
statute potentially implicates not only                 potentially implicate the statute if the     the discount exception, potentially
the offer or payment of anything of                     concessions or benefits are offered to       implicates the anti-kickback statute.
value for patient referrals, but also the               induce the wholesaler to purchase the        Non-price terms of sale make it difficult
offer or payment of anything of value in                products and to recommend the                to ensure that the value of the
return for purchasing, leasing, ordering,               products to, or arrange for the purchase     remuneration is appropriately
or arranging for or recommending the                    of the products by, customers that           apportioned and accurately reported
                                                        submit claims to the Federal health care     and that costs are not shifted
purchase, lease, or ordering of any item
                                                        programs. Finally, incentive payments        disproportionately from private payers
or service reimbursable in whole or part
                                                        to GPOs, PBMs, and other persons or          to the Federal health care programs.
by a Federal health care program. Under
                                                        entities in a position to influence the      Arrangements involving such non-price
certain circumstances, a violation of the
                                                        purchase of a manufacturers’s products,      terms should be evaluated on a case-by-
anti-kickback statute may give rise to
                                                        but that do not themselves purchase the      case basis. Arrangements that may
liability under the False Claims Act.
                                                        products, also potentially implicate the     increase the risk of overutilization,
   Activities that fit squarely in one of
                                                        anti-kickback statute.                       higher government program costs,
the safe harbors set forth in 42 CFR                       Discounts. The anti-kickback statute      inappropriate steering of Federal health
1001.952 are deemed immune from                         contains a broad exception for discounts     care business, or unfair competition are
sanction under the anti-kickback statute.               offered to customers that submit claims      particularly suspect.
We recommend that pharmaceutical                        to the Federal health care programs, if         Pharmaceutical manufacturers
manufacturers structure their                           the discounts are properly disclosed and     sometimes offer certain services in
arrangements to fit in a safe harbor                    accurately reported. See 42 U.S.C.           connection with the sale of their
whenever possible. Potentially relevant                 1320a–7b(b)(3)(A); 42 CFR 1001.952(h).       products. Such services include, among
safe harbors include: personal services                 However, to qualify for the exception,       other things, product-related billing
and management contracts, warranties,                   the discount must be in the form of a        assistance programs, reimbursement
discounts, employees, group purchasing                  reduction in the price of the good or        consultation, or other types of programs.
organization arrangements, and shared                   service based on an arms-length              Any time a pharmaceutical
risk arrangements. Even where an                        transaction. In other words, the             manufacturer provides free or below
arrangement cannot be structured to fit                 exception covers only actual reductions      market rate goods or services to a
in a safe harbor, the safe harbor                       in the product’s price. Moreover, the        purchaser (or other potential referral
regulations (and accompanying Federal                   regulations provide that the discount        source, such as a physician who might
Register preambles) provide valuable                    must be given at the time of sale or, in     prescribe a manufacturer s product or a
guidance for assessing risk of abuse                    certain cases, set at the time of sale,      PBM that might put it on a formulary),
under the anti-kickback statute. In                     even if finally determined subsequent to     it should examine whether it is
addition, parties seeking guidance about                the time of sale (i.e., a rebate). Other     providing a valuable tangible benefit to
their particular arrangements may apply                 kinds of price concessions (including,       the recipient with the intent to induce
                                                        but not limited to, discounts on other       or reward referrals. For example, a
  5 The 340 B program, contained as part of the
                                                        products, other free or reduced price        manufacturer should examine whether
Public Health Services Act and codified at 42 U.S.C.
256b, is administered by the Health Resources and
                                                        goods or services, ‘‘educational’’ or        the services are made available to all
Services Administration (HRSA).                         other grants, ‘‘conversion payments,’’       customers or only to a select group (e.g.,
  6 42 U.S.C. 1396r–8. Average Manufacturer Price       signing bonuses, or ‘‘up-front rebates’’)    high volume prescribers). If the
are defined in the statute at 42 U.S.C. 1396r–8(k)(1)   do not qualify for the discount              purchaser or referral source is in a
and 1396r–8(c)(1), respectively. CMS has provided       exception and should be carefully            position to make or influence referrals,
further guidance on these terms in the National
Drug Rebate Agreement and in Medicaid Program           reviewed.                                    and if the goods or services provided by
Releases available through its Web site at                 Manufacturers offering discounts          the manufacturer eliminate an expense
http:www.hcfa.gov/medicaid/drugs/drug.mpg.htm.          should thoroughly familiarize                that the purchaser or referral source
62062                 Federal Register / Vol. 67, No. 192 / Thursday, October 3, 2002 / Notices

would have otherwise incurred, the          purchaser (the Federal or state            to encourage them change a prescription
arrangement is likely to be problematic     government). Under the anti-kickback       from another product to the company’s
from a kickback perspective. Similarly,     statute, offering remuneration to a        product, and discounts or rebates based
if a manufacturer provides a service        purchaser or referral source is improper   on movement of market share.
having no independent value (such as        if one purpose is to induce the purchase      Consulting and advisory payments.
limited reimbursement support services      or referral of program business.           Pharmaceutical manufacturers
in connection with its own products) in        In the light of this risk, the OIG      frequently engage physicians and other
tandem with another service or program      recommends that manufacturers review       health care professionals to act as
that confers a benefit on a referring       their AWP reporting practices and          ‘‘consultants,’’ ‘‘advisors,’’ or
provider (such as one that eliminates       methodology to confirm that marketing      ‘‘researchers’’ in connection with
normal financial risks), the arrangement    considerations do not influence the        various types of marketing and research
could raise kickback concerns. For          process. Furthermore, manufacturers        activities. For instance, pharmaceutical
example, the anti-kickback statute          should review their marketing practices.   manufacturers may engage physicians to
would be implicated if a manufacturer       Manipulation of the AWP to induce          perform research, data collection, and
were to couple a reimbursement support      customers to purchase a product,           consulting services, to serve on advisory
service with (i) a requirement that a       coupled with active marketing of the       boards, to participate in focus groups, or
purchaser pay for ordered products only     spread is evidence of the unlawful         to speak at meetings. While there may
if the purchaser is paid or (ii) a          intent necessary to trigger the anti-      be legitimate purposes to these
guarantee of a minimum ‘‘spread’’           kickback statute. Active marketing of      arrangements, they pose a substantial
between the purchase price and third        the spread includes, for example, sales    risk of fraud and abuse; without
party reimbursement levels.                 representatives promoting the spread as    appropriate safeguards, they can result
   (b) Average Wholesale Price. The         a reason to purchase the product or        in payments for referrals.
‘‘spread’’ is the difference between the    guaranteeing a certain profit or spread       Pharmaceutical manufacturers should
amount a customer pays for a product        in exchange for the purchase of a          ensure that they (and their sales agents)
and the amount the customer receives        product.                                   compensate health care professionals
upon resale of the product to the patient      (2) Relationships with Physicians and   only for providing actual, reasonable,
or other payer. In many situations under    Other Health Care Professionals.           and necessary services and that the
the Federal programs, pharmaceutical        Pharmaceutical manufacturers and their     arrangements are not merely token
manufacturers control not only the          agents may have a variety of               arrangements created to disguise
amount at which they sell a product to      remunerative relationships with            otherwise improper payments.
their customers, but also the amount        physicians and other health care           Moreover, payments should be fair
those customers who purchase the            professionals who order or prescribe       market value for the services rendered,
product for their own accounts and          their products. As these relationships     and manufacturers should take steps to
thereafter bill the Federal health care     may implicate the anti-kickback statute,   ensure appropriate documentation of
programs will be reimbursed. A subset       they should be examined carefully.         the fair market value determination, as
of the manufacturer’s customers,            Relationships with particular parties      well as the performance of the services.
including certain medical specialists,      should be evaluated individually and in    Whenever possible, the OIG
PBMs, HMOs, and institutional               the aggregate. The following discussion    recommends that consulting and
providers, are also in a position to        highlights some of the most significant    advisory arrangements be structured to
influence substantially a physician’s or    areas of potential risk.                   fit in the personal services safe harbor
other health care professional’s               ‘‘Switching’’ arrangements. As noted    (42 CFR 1001.952(d)).
selection of the product. To the extent     in the 1994 Special Fraud Alert (59 FR        Other remuneration. Pharmaceutical
that a manufacturer controls the            65372; December 19, 1994), product         companies and their employees and
‘‘spread,’’ it controls its customer’s      conversion arrangements (also known as     agents engage in a number of other
profit.                                     ‘‘switching’’ arrangements) are suspect    arrangements that offer benefits, directly
   Average Wholesale Price (AWP) is the     under the anti-kickback statute.           or indirectly, to physicians or others in
benchmark often used to set                 Switching arrangements involve             a position to make or influence referrals.
reimbursement for prescription drugs        pharmaceutical manufacturers offering      These arrangements potentially
under the Medicare Part B program. For      pharmacies, PBMs, physicians or other      implicate the anti-kickback statute.
covered drugs and biologicals, Medicare     prescribers cash payments or other         They include:
Part B generally reimburses at ‘‘95         benefits each time a patient’s                • Entertainment, recreation, travel,
percent of average wholesale price.’’ 42    prescription is changed to the             meals, or other benefits in association
U.S.C. 1395u(o). Similarly many state       manufacturer’s product from a              with information or marketing
Medicaid programs and other payers          competing product. This activity           presentations;
base reimbursement for drugs and            implicates the statute, and, while such       • Sponsorship or other financing
biologicals on AWP. Generally, AWP is       programs may be permissible in certain     related to third-party educational
reported directly by pharmaceutical         managed care arrangements,                 conferences and meetings attended or
manufacturers.                              manufacturers should review any            taught by physicians or others in a
   A pharmaceutical manufacturer’s          marketing practices utilizing              position to generate or influence
purposeful manipulation of the AWP to       ‘‘switching’’ payments in connection       referrals;
increase its customers profits by           with products reimbursable by Federal         • Scholarships and educational
increasing the amount the Federal           health care programs very carefully. In    funds;
health care programs reimburse its          addition, arrangements that have the          • Grants for research and education;
customers implicates the anti-kickback      effect of rewarding switching indirectly   and
statute. Unlike bona fide discounts,        should also be carefully reviewed. Such       • Gifts, gratuities, and other business
which transfer remuneration from a          arrangements include payments by           courtesies.
seller to a buyer, manipulation of the      pharmaceutical manufacturers to               These practices raise a particular risk
AWP transfers remuneration to a seller’s    pharmacies, PBMs, or others for            where they involve parties in a position
immediate customer from a subsequent        contacting patients or their physicians    to prescribe or order the manufacturer’s
                       Federal Register / Vol. 67, No. 192 / Thursday, October 3, 2002 / Notices                              62063

products or to influence such                 Federal health care program potentially       physician) and are used to treat Federal
prescriptions or orders. These parties        implicates the anti-kickback statute,         health care program beneficiaries, the
include physicians and other health           irrespective of the methodology used to       provision of samples may also trigger
care professionals, as well as PBMs,          compensate the agent. In addition, sales      potential False Claims Acts or kickback
GPOs, hospital systems, and the like.         agents may engage in improper                 liability.
   With respect to these practices, a good    marketing and promotional activities             Pharmaceutical manufacturers should
starting point for compliance purposes        that may give rise to manufacturer            closely follow the PDMA requirements
is the ‘‘PhRMA Code on Interactions           liability. Of particular concern are          (including all documentation
with Healthcare Professionals’’ (the          situations in which a sales agent’s           requirements). In addition,
‘‘PhRMA Code’’ ), a voluntary code            express or implied duties include             manufacturers can minimize their risk
promulgated by the Executive                  offering or paying remuneration (in any       of liability by (i) training their sales
Committee of the Pharmaceutical               form) to purchasers or prescribers of the     force to inform sample recipients in a
Research and Manufacturers of America         pharmaceutical manufacturer’s products        meaningful manner that samples may
(PhRMA), that became effective July 1,        or in which a sales agent’s                   not be sold or billed; (ii) clearly and
2002. It is available through PhRMA’s         compensation methodology creates an           conspicuously labeling individual
Web site at http://www.phrma.org. The         undue incentive to engage in aggressive       samples as units that may not be sold;
PhRMA Code provides useful guidance           marketing or promotional practices.           and (iii) including on packaging and any
for evaluating relationships with                As an initial matter, the safe harbors     documentation related to the samples
physicians and other health care              for personal services arrangements and        (such as shipping notices or invoices) a
professionals. The OIG recommends             employment, 42 CFR 1001.952(d) and            clear and conspicuous notice that the
that pharmaceutical manufacturers at a        (i), are available to protect many            samples are subject to PDMA and may
minimum comply with the standards set         compensation arrangements with sales          not be sold. Recent government
by the PhRMA Code. Arrangements that          agents. While compliance with safe            enforcement activity has focused on
fail to meet the minimum standards set        harbors is voluntary and failure to           instances in which drug samples were
out in the PhRMA Code are likely to           comply does not necessarily mean that         provided to physicians who, in turn,
receive increased scrutiny from               an arrangement violates the anti-             sold them to the patient or billed them
government authorities.                       kickback statute, the OIG strongly            to the Federal health care programs on
   While the PhRMA Code provides              recommends that manufacturers                 behalf of the patient.
important and practicable benchmarks          structure their relationships with their
for manufacturers and government              sales force to fit in a safe harbor           C. Designation of a Compliance Officer
when evaluating practices involving           whenever possible. Compensation               and a Compliance Committee
gifts, gratuities, and other benefits, it     arrangements with sales personnel that        1. Compliance Officer
must be understood that compliance            do not fit in a safe harbor should be
with the relevant sections of the PhRMA       reviewed carefully.                              Every pharmaceutical manufacturer
Code will not necessarily protect a              It is in a pharmaceutical                  should designate a compliance officer to
manufacturer from prosecution or              manufacturer’s best interests to: (i)         serve as the focal point for compliance
liability for illegal conduct. Thus, all      Develop a regular and comprehensive           activities. This responsibility may be the
arrangements should be reviewed with          training program for its sales force,         individual’s sole duty or added to other
the following issues, among others, in        including refresher and updated               management responsibilities, depending
mind:                                         training on a regular basis, either in        upon the size and resources of the
   • Is the gift or other benefit made to     person or through newsletters,                company and the complexity of the task.
a person in a position to generate or         memoranda, or the like; (ii) institute and    If the individual has additional
influence business for the paying party?      implement corrective action and               management responsibilities, the
   • Does the gift or other benefit take      disciplinary policies applicable to sales     pharmaceutical manufacturer should
into account, directly or indirectly, the     agents who engage in improper                 ensure that the individual is able to
volume or value of business generated         marketing; (iii) avail itself of the          dedicate adequate and substantive time
(e.g., is the payment or gift only given      advisory opinion process if it has            and attention to the compliance
to persons who have prescribed or agree       questions about particular practices          functions. Similarly, if the compliance
to prescribe the product)?                    used by its sales force; and (iv) establish   officer delegates some of the compliance
   • Is the gift or benefit more than         an effective system for tracking,             duties, he or she should, nonetheless,
nominal in value and/or does it exceed        compiling, and reviewing information          remain sufficiently involved to fulfill
the fair market value of any legitimate       about sales force activities.                 the compliance oversight function.
service rendered to payer?                       c. Drug Samples. The provision of             Designating a compliance officer with
   • Is the gift or benefit unrelated to      drug samples is a widespread industry         the appropriate authority is critical to
any services at all other than the referral   practice that can benefit patients, but       the success of the program, necessitating
of Federal health care business?              can also be an area of potential risk to      the appointment of a high-level official
   (3) Relationships with Sales Agents.       a pharmaceutical manufacturer. The            with direct access to the company’s
Sales agents, whether employees or            Prescription Drug Marketing Act of 1987       president or CEO, board of directors, all
independent contractors, are in the           (PDMA) governs the distribution of drug       other senior management, and legal
business of recommending or arranging         samples and forbids their sale. 21 U.S.C.     counsel. The compliance officer should
for the purchase of the items or services     353(c)(1). A drug sample is defined to be     have sufficient funding, resources, and
they offer for sale on behalf of the          a unit of the drug ‘‘that is not intended     staff to perform his or her
pharmaceutical manufacturer they              to be sold * * * and is intended to           responsibilities fully. The compliance
represent. Accordingly, any                   promote the sale of the drug’’. 21 U.S.C.     officer should be able to effectuate
compensation arrangement between a            353(c)(1). Failure to comply with the         change within the organization as
pharmaceutical manufacturer and a             requirements of PDMA can result in            necessary or appropriate and to exercise
sales agent for the purpose of selling        PDMA sanctions. In some                       independent judgment. Optimal
health care items or services that are        circumstances, if the samples have            placement of the compliance officer
directly or indirectly reimbursable by a      monetary value to the recipient (e.g., a      within the organization will vary
62064                         Federal Register / Vol. 67, No. 192 / Thursday, October 3, 2002 / Notices

according to the particular situation of                  ensure that the List of Excluded                       officer should seek the advice of
a manufacturer.7                                          Individuals/Entities 9 has been checked                competent legal counsel about these
  Coordination and communication                          with respect to all employees and                      matters.
with other appropriate individuals or                     independent contractors;
                                                                                                                 2. Compliance Committee
business units are the key functions of                     • Assisting the company’s internal
the compliance officer with regard to                     auditors in coordinating internal                         The OIG recommends that a
planning, implementing or enhancing,                      compliance review and monitoring                       compliance committee be established to
and monitoring the compliance                             activities;                                            advise the compliance officer and assist
program. The compliance officer’s                           • Reviewing and, where appropriate,                  in the implementation of the
primary responsibilities should include:                  acting in response to reports of non-                  compliance program.11 When
  • Overseeing and monitoring                             compliance received through the hotline                developing an appropriate team of
implementation of the compliance                          (or other established reporting                        people to serve as the pharmaceutical
program; 8                                                mechanism) or otherwise brought to his                 manufacturer s compliance committee,
  • Reporting on a regular basis to the                   or her attention (e.g., as a result of an              the company should consider a variety
company’s board of directors, CEO or                      internal audit or by corporate counsel                 of skills and personality traits that are
president, and compliance committee (if                   who may have been notified of a                        expected from the team members. The
applicable) on compliance matters and                     potential instance of non-compliance);                 company should expect its compliance
assisting these individuals or groups to                    • Independently investigating and                    committee members and compliance
establish methods to reduce the                           acting on matters related to compliance.               officer to demonstrate high integrity,
company’s vulnerability to fraud and                      To that end, the compliance officer                    good judgment, assertiveness, and an
abuse;                                                    should have the flexibility to design and              approachable demeanor, while eliciting
  • Periodically revising the                             coordinate internal investigations (e.g.,              the respect and trust of company
compliance program, as appropriate, to                    responding to reports of problems or                   employees. These interpersonal skills
respond to changes in the company’s                       suspected violations) and any resulting                are as important as the professional
needs and applicable Federal health                       corrective action (e.g., making necessary              experience of the compliance officer
care program requirements, identified                     improvements to policies and practices,                and each member of the compliance
weakness in the compliance program, or                    and taking appropriate disciplinary                    committee.
identified systemic patterns of non-                      action) with various company divisions                    Once a pharmaceutical manufacturer
compliance;                                               or departments;                                        chooses the people who will accept the
  • Developing, coordinating, and                           • Participating with the company s                   responsibilities vested in members of
participating in a multifaceted                           counsel in the appropriate reporting of                the compliance committee, the company
educational and training program that                     any self-discovered violations of Federal              needs to train these individuals on the
focuses on the elements of the                            health care program requirements; and                  policies and procedures of the
compliance program, and seeking to                          • Continuing the momentum and, as                    compliance program, as well as how to
ensure that all affected employees and                    appropriate, revision or expansion of                  discharge their duties. The OIG
management understand and comply                          the compliance program after the initial               recognizes that some pharmaceutical
with pertinent Federal and state                          years of implementation.10                             manufacturers (e.g., small companies or
standards;                                                  The compliance officer must have the                 those with limited budgets) may not
  • Ensuring that independent                             authority to review all documents and                  have the resources or the need to
contractors and agents, particularly                      other information relevant to                          establish a compliance committee.
those agents and contractors who are                      compliance activities. This review                     However, when potential problems are
involved in sales and marketing                           authority should enable the compliance                 identified at such companies, the OIG
activities, are aware of the requirements                 officer to examine interactions with                   recommends the creation of a task force
of the company’s compliance program                       government programs to determine                       to address the particular issues. The
with respect to sales and marketing                       whether the company is in compliance                   members of the task force may vary
activities, among other things;                           with Federal health care program                       depending upon the area of concern. For
  • Coordinating personnel issues with                    reporting and rebate requirements and                  example, if the compliance officer
the company’s Human Resources/                            to examine interactions with health care               identifies issues relating to improper
Personnel office (or its equivalent) to                   professionals that could violate                       inducements to the company’s
                                                          kickback prohibitions or other Federal                 purchasers or prescribers, the OIG
   7 The OIG believes it is generally not advisable for
                                                          health care programs requirements.                     recommends that a task force be
the compliance function to be subordinate to the                                                                 organized to review the arrangements
pharmaceutical manufacturer’s general counsel, or         Where appropriate, the compliance
comptroller or similar financial officer. Separation
                                                                                                                 and interactions with those purchasers
of the compliance function helps to ensure                  9 As part of its commitment to compliance, a         or prescribers. In essence, the
independent and objective legal reviews and               pharmaceutical manufacturer should carefully           compliance committee is an extension
financial analysis of the company’s compliance            consider whether to hire or do business with           of the compliance officer and provides
efforts and activities. By separating the compliance      individuals or entities that have been sanctioned by
function from the key management positions of             the OIG. The List of Excluded Individuals and
                                                                                                                 the organization with increased
general counsel or chief financial officer (where the     Entities can be checked electronically and is          oversight.
size and structure of the pharmaceutical                  accessible through the OIG’s Web site at: http://
manufacturer make this a feasible option), a system       oig.hhs.gov.                                             11 The compliance committee benefits from
of checks and balances is established to more               10 There are many approaches the compliance          having the perspectives of individuals with varying
effectively achieve the goals of the compliance           officer may enlist to maintain the vitality of the     responsibilities and areas of knowledge in the
program.                                                  compliance program. Periodic on-site visits of         organization, such as operations, finance, audit,
   8 For companies with pharmaceutical                    regional operations, bulletins with compliance         human resources, legal, and sales and marketing, as
manufacturers multiple divisions or regional              updates and reminders, distribution of audiotapes,     well as employees and managers of key operating
offices, the OIG encourages coordination with each        videotapes, CD–ROMs, or computer notifications         units. The compliance officer should be an integral
company location through the use of a compliance          about different risk areas, lectures at management     member of the committee. All committee members
officer located in corporate headquarters who is          and employee meetings, and circulation of recent       should have the requisite seniority and
able to communicate with parallel compliance              articles or publications discussing fraud and abuse    comprehensive experience within their respective
liaisons in each division or regional office, as          are some examples of approaches the compliance         departments to recommend and implement any
appropriate.                                              officer may employ.                                    necessary changes to policies and procedures.
                      Federal Register / Vol. 67, No. 192 / Thursday, October 3, 2002 / Notices                                     62065

D. Conducting Effective Training and        of its training of employees, including      and employees. In order to encourage
Education                                   attendance logs, descriptions of the         communications, confidentiality and
   The proper education and training of     training sessions, and copies of the         non-retaliation policies should also be
officers, directors, employees,             material distributed at training sessions.   developed and distributed to all
contractors, and agents, and periodic          The OIG suggests that all relevant        employees.12
retraining of personnel at all levels are   personnel (i.e., employees as well as           Open lines of communication
critical elements of an effective           agents of the pharmaceutical                 between the compliance officer and
compliance program. A pharmaceutical        manufacturer) participate in the various     employees are equally important to the
manufacturer must take steps to             educational and training programs of         successful implementation of a
communicate effectively its standards       the company. For example, for sales          compliance program and the reduction
and procedures to all affected personnel    representatives who are responsible for      of any potential for fraud and abuse. In
by requiring participation in appropriate   the sale and marketing of the company’s      addition to serving as a contact point for
training programs and by other means,       products, periodic training in the anti-     reporting problems and initiating
such as disseminating publications that     kickback statute and its safe harbors        appropriate responsive action, the
explain specific requirements in a          should be required. Employees should         compliance officer should be viewed as
practical manner. These training            be required to have a minimum number         someone to whom personnel can go to
programs should include general             of educational hours per year, as            get clarification on the company’s
sessions summarizing the                    appropriate, as part of their employment     policies. Questions and responses
manufacturer’s compliance program,          responsibilities.                            should be documented and dated and,
written standards, and applicable              The OIG recognizes that the format of     if appropriate, shared with other staff so
Federal health care program                 the training program will vary               that compliance standards or policies
requirements. All employees and, where      depending upon the size and resources        can be updated and improved to reflect
feasible and appropriate, contractors       of the pharmaceutical manufacturer. For      any necessary changes or clarifications.
should receive the general training.        example, a company with limited              Pharmaceutical manufacturers may also
More specific training on issues, such as   resources or whose sales force is widely     consider rewarding employees for
(i) the anti-kickback statute and how it    dispersed may want to create a               appropriate use of established reporting
applies to pharmaceutical sales and         videotape or computer-based program          systems as a way to encourage the use
marketing practices and (ii) the            for each type of training session so new     of such systems.
calculation and reporting of pricing        employees and employees outside of
                                            central locations can receive training in    2. Hotlines and Other Forms of
information and payment of rebates in                                                    Communication
connection with Federal health care         a timely manner. If videos or computer-
programs, should be targeted at those       based programs are used for compliance          The OIG encourages the use of
employees and contractors whose job         training, the OIG suggests that the          hotlines, e-mails, newsletters,
requirements make the information           company make a qualified individual          suggestion boxes, and other forms of
relevant. The specific training should be   available to field questions from            information exchange to maintain open
tailored to make it as meaningful as        trainees. Also, large pharmaceutical         lines of communication. In addition, an
possible for the participants.              manufacturers may find training via the      effective employee exit interview
   Managers and employees of specific       Internet or video conference capabilities    program could be designed to solicit
divisions can assist in identifying         to be a cost-effective means of reaching     information from departing employees
specialized areas that require training     a large number of employees.                 regarding potential misconduct and
and in carrying out such training.          Alternatively, large companies may           suspected violations of company policy
Additional areas for training may also      include training sessions as part of         and procedures. Pharmaceutical
be identified through internal audits       regularly scheduled regional meetings.       manufacturers may also identify areas of
and monitoring and from a review of            The OIG recommends that                   risk or concern through periodic surveys
any past compliance problems of the         participation in training programs be        or communications with sales
pharmaceutical manufacturer or              made a condition of continued                representatives about the current
similarly-situated companies. Training      employment and that failure to comply        marketing environment. This could
instructors may come from outside or        with training requirements should result     provide management with insight about
inside the organization, but must be        in disciplinary action. Adherence to the     and an opportunity to address conduct
qualified to present the subject matter     training requirements as well as other       occurring in the field, either by the
involved and sufficiently experienced in    provisions of the compliance program         company’s own sale representatives or
the issues presented to adequately field    should be a factor in the annual             those of other companies.
questions and coordinate discussions        evaluation of each employee.                    If a pharmaceutical manufacturer
among those being trained. Ideally,         E. Developing Effective Lines of             establishes a hotline or other reporting
training instructors should be available    Communication                                mechanism, information regarding how
for follow-up questions after the formal                                                 to access the reporting mechanism
training session has been conducted.        1. Access to Supervisors and/or the          should be made readily available to all
   The pharmaceutical manufacturer          Compliance Officer                           employees and independent contractors
should train new employees soon after          In order for a compliance program to      by including that information in the
they have started working. Training         work, employees must be able to ask          code of conduct or by circulating the
programs and materials should be            questions and report problems.                  12 In some cases, employees sue their employers
designed to take into account the skills,   Supervisors play a key role in               under the False Claims Act’s qui tam provisions
experience, and knowledge of the            responding to employee concerns and it       after a failure or apparent failure by the company
individual trainees. The compliance         is appropriate that they serve as a first    to take action when the employee brought a
officer should document any formal          line of communications. Pharmaceutical       questionable, fraudulent, or abusive situation to the
                                                                                         attention of senior corporate officials.
training undertaken by the company as       manufacturers should consider the            Whistleblowers must be protected against
part of the compliance program. The         adoption of open-door policies in order      retaliation, a concept embodied in the provisions of
company should retain adequate records      to foster dialogue between management        the False Claims Act. See 31 U.S.C. 3730(h).
62066                       Federal Register / Vol. 67, No. 192 / Thursday, October 3, 2002 / Notices

information (e.g., by publishing the                     Although many assessment                 reasonable indications of suspected
hotline number or e-mail address on                   techniques are available, it is often       noncompliance, it is important that the
wallet cards) or conspicuously posting                effective to have internal or external      compliance officer or other management
the information in common work                        evaluators who have relevant expertise      officials immediately investigate the
areas.13 Employees should be permitted                perform regular compliance reviews.         allegations to determine whether a
to report matters on an anonymous                     The reviews should focus on those           material violation of applicable law or
basis.                                                divisions or departments of the             the requirements of the compliance
  Reported matters that suggest                       pharmaceutical manufacturer that have       program has occurred and, if so, take
substantial violations of compliance                  substantive involvement with or impact      decisive steps to correct the problem.14
policies or applicable Federal health                 on Federal health care programs (such       The exact nature and level of
care program requirements should be                   as the government contracts and sales       thoroughness of the investigation will
documented and investigated promptly                  and marketing divisions) and on the risk    vary according to the circumstances, but
to determine their veracity and the                   areas identified in this guidance. The      the review should be detailed enough to
scope and cause of any underlying                     reviews should also evaluate the            identify the root cause of the problem.
problem. The compliance officer should                company’s policies and procedures           As appropriate, the investigation may
maintain a detailed log that records                  regarding other areas of concern            include a corrective action plan, a report
such reports, including the nature of                 identified by the OIG (e.g., through        and repayment to the government, and/
any investigation, its results, and any               Special Fraud Alerts) and Federal and       or a referral to criminal and/or civil law
remedial or disciplinary action taken.                state law enforcement agencies.             enforcement authorities.
Such information, redacted of                         Specifically, the reviews should
                                                      evaluate whether: (1) The                   Reporting
individual identifiers, should be
summarized and included in reports to                 pharmaceutical manufacturer has                Where the compliance officer,
the board of directors, the president or              policies covering the identified risk       compliance committee, or a member of
CEO, and compliance committee.                        areas; (2) whether the policies were        senior management discovers credible
Although the pharmaceutical                           implemented and communicated; and           evidence of misconduct from any source
manufacturer should always strive to                  (3) whether the policies were followed.     and, after a reasonable inquiry, believes
maintain the confidentiality of an                    G. Enforcing Standards Through Well-        that the misconduct may violate
employee’s identity, it should also make              Publicized Disciplinary Guidelines          criminal, civil, or administrative law,
clear that there may be a point where                                                             the company should promptly report
                                                         An effective compliance program          the existence of misconduct to the
the individual’s identity may become
                                                      should include clear and specific           appropriate Federal and state
known or need to be revealed in certain
                                                      disciplinary policies that set out the      authorities 15 within a reasonable
instances. The OIG recognizes that
                                                      consequences of violating the law or the    period, but not more than 60 days,16
protecting anonymity may be infeasible
                                                      pharmaceutical manufacturer’s code of       after determining that there is credible
for small companies. However, the OIG
                                                      conduct or policies and procedures. A       evidence of a violation.17 Prompt
believes all employees, when seeking
                                                      pharmaceutical manufacturer should
answers to questions or reporting
                                                      consistently undertake appropriate            14 Instances of noncompliance must be
potential instances of fraud and abuse,
                                                      disciplinary action across the company      determined on a case-by-case basis. The existence
should know to whom to turn for a                     in order for the disciplinary policy to     or amount of a monetary loss to a Federal health
meaningful response and should be able                have the required deterrent effect.         care program is not solely determinative of whether
to do so without fear of retribution.                 Intentional and material noncompliance
                                                                                                  the conduct should be investigated and reported to
                                                                                                  governmental authorities. In fact, there may be
F. Auditing and Monitoring                            should subject transgressors to             instances where there is no readily identifiable
                                                      significant sanctions. Such sanctions       monetary loss, but corrective actions are still
  An effective compliance program                                                                 necessary to protect the integrity of the health care
                                                      could range from oral warnings to
should incorporate thorough monitoring                                                            program.
                                                      suspension, termination or other
of its implementation and an ongoing                                                                15 Appropriate Federal and state authorities
                                                      sanctions, as appropriate. Disciplinary     include the OIG, the Criminal and Civil Divisions
evaluation process. The compliance
                                                      action also may be appropriate where a      of the Department of Justice, the U.S. Attorney in
officer should document this ongoing                                                              relevant districts, the Food and Drug
                                                      responsible employee’s failure to detect
monitoring, including reports of                                                                  Administration, the Federal Trade Commission, the
                                                      a violation is attributable to his or her
suspected noncompliance, and provide                                                              Drug Enforcement Administration and the Federal
                                                      negligence or reckless conduct. Each        Bureau of Investigation, and the other investigative
these assessments to company’s senior
                                                      situation must be considered on a case-     arms for the agencies administering the affected
management and the compliance                                                                     Federal or state health care programs, such as the
                                                      by-case basis, taking into account all
committee. The extent and frequency of                                                            state Medicaid Fraud Control Unit, the Defense
                                                      relevant factors, to determine the
the compliance audits may vary                                                                    Criminal Investigative Service, the Department of
                                                      appropriate response.                       Veterans Affairs, HRSA, and the Office of Personnel
depending on variables such as the
                                                                                                  Management (which administers the Federal
pharmaceutical manufacturer’s available               H. Responding to Detected Problems          Employee Health Benefits Program).
resources, prior history of                           and Developing Corrective Action              16 In contrast, to qualify for the ‘‘not less than

noncompliance, and the risk factors                   Initiatives                                 double damages’’ provision of the False Claims Act,
particular to the company. The nature of                                                          the provider must provide the report to the
                                                         Violation of a pharmaceutical            government within 30 days after the date when the
the reviews may also vary and could                   manufacturer’s compliance program,          provider first obtained the information. 31 U.S.C.
include a prospective systemic review                 failure to comply with applicable           3729(a).
of the manufacturer’s processes,                      Federal or state law, and other types of      17 Some violations may be so serious that they

protocols, and practices or a                         misconduct threaten the company’s           warrant immediate notification to governmental
retrospective review of actual practices                                                          authorities prior to, or simultaneous with,
                                                      status as a reliable, honest, and           commencing an internal investigation. By way of
in a particular area.                                 trustworthy participant in the health       example, the OIG believes a provider should report
                                                      care industry. Detected but uncorrected     misconduct that: (1) Is a clear violation of
   13 Pharmaceutical manufacturers should also post                                               administrative, civil, or criminal laws; (2) has a
in a prominent area the HHS–OIG Hotline
                                                      misconduct can endanger the reputation      significant adverse effect on the quality of care
telephone number, 1–800–447–8477 (1–800–HHS–          and legal status of the company.            provided to Federal health care program
TIPS).                                                Consequently, upon receipt of               beneficiaries; or (3) indicates evidence of a systemic
                                       Federal Register / Vol. 67, No. 192 / Thursday, October 3, 2002 / Notices                                                                                  62067

voluntary reporting will demonstrate                                       compliance guidance can be adapted to                            numbers of racial-ethnic minorities to
the pharmaceutical manufacturer’s good                                     the unique environment of each                                   analyze particular domains within
faith and willingness to work with                                         manufacturer. It is the hope and                                 them, such as age by gender and income
governmental authorities to correct and                                    expectation of the OIG that the resulting                        or education. The CHIS telephone
remedy the problem. In addition,                                           compliance programs will benefit not                             survey, administered for the first time in
reporting such conduct will be                                             only Federal health care programs and                            2000–2001, is designed to provide
considered a mitigating factor by the                                      their beneficiaries, but also                                    population-based, standardized health-
OIG in determining administrative                                          pharmaceutical manufacturers                                     related data for California counties.
sanctions (e.g., penalties, assessments,                                   themselves.                                                      Initiated by the California Department of
and exclusion), if the reporting                                             Dated: September 26, 2002.                                     Health Services (CDHS) Center for
company becomes the subject of an OIG                                                                                                       Health Statistics, the Public Health
                                                                           Janet Rehnquist,
investigation.18                                                                                                                            Institute (PHI), and the UCLA Center for
   When reporting to the government, a                                     Inspector General.

                                                                                                                                            Health Policy Research (UCLA), the
pharmaceutical manufacturer should                                         [FR Doc. 02–25119 Filed 10–2–02; 8:45 am] 

                                                                                                                                            survey is largely funded by California
provide all information relevant to the                                    BILLING CODE 4152–01–P
                                                                                                                                            sources. The 2000 CHIS CCM is similar
alleged violation of applicable Federal                                                                                                     in content to the 2000 NHIS CCM, and
or state law(s) and the potential                                                                                                           met its target of one sample adult in
financial or other impact of the alleged                                   DEPARTMENT OF HEALTH AND
                                                                           HUMAN SERVICES                                                   55,000 households. California, the most
violation. The compliance officer, under                                                                                                    populous state in the nation, is also the
advice of counsel and with guidance                                                                                                         most racially and ethnically diverse.
                                                                           National Institutes of Health
from the governmental authorities,                                                                                                          Specific populations of interest include
could be requested to continue to                                          Proposed Data Collection; Comment                                Black or African American, Hispanic or
investigate the reported violation. Once                                   Request; California Health Interview                             Latino, Asian, Native Hawaiian or Other
the investigation is completed, and                                        Survey (CHIS) Cancer Control Module                              Pacific Islander, and American Indian or
especially if the investigation ultimately                                 (CCM)                                                            Alaska Native. The CHIS data was
reveals that criminal, civil or                                                                                                             released in July 2002. NCI is using the
administrative violations have occurred,                                   SUMMARY: In compliance with the
                                                                                                                                            CHIS and NHIS data from 2000/2001 to
the compliance officer should notify the                                   requirement of Section 3506(c)(2)(A) of
                                                                                                                                            better estimate health-related behaviors
appropriate governmental authority of                                      the Paperwork Reduction Act of 1995
                                                                                                                                            and cancer risk factors for smaller
the outcome of the investigation,                                          for opportunity for public comment on
                                                                                                                                            racial/ethnic minority populations.
including a description of the impact of                                   proposed data collection projects, the
                                                                                                                                            Preliminary analyses suggest that the
the alleged violation on the operation of                                  National Institutes of Health (NIH),
                                                                                                                                            CHIS will provide improved estimates
the applicable Federal health care                                         National Cancer Institute (NCI) will
                                                                                                                                            for cancer risk factors and screening
programs or their beneficiaries.                                           publish periodic summaries of proposed
                                                                                                                                            among racial/ethnic minority
                                                                           projects to be submitted to the Office of
III. Conclusion                                                                                                                             populations. NCI will sponsor questions
                                                                           Management and Budget (OMB) for
   In today’s environment of increased                                                                                                      on cancer screening in the 2003 NHIS
                                                                           review and approval.
scrutiny of corporate conduct and                                                                                                           and to provide better estimates for
increasingly large expenditures for                                        Proposed Collection                                              smaller racial-ethnic minority
prescription drugs, it is imperative for                                     Title: California Health Interview                             populations, anticipates also sponsoring
pharmaceutical manufacturers to                                            Survey (CHIS) Cancer Control Module                              cancer-screening questions on the 2003
establish and maintain effective                                           (CCM). Type of Information Collection                            CHIS. NCI will also take advantage of
compliance programs. These programs                                        Request: New. Need and Use of                                    the Housing and Environment Module
should foster a culture of compliance                                      Information Collection: NCI sponsored a                          to be included in the 2003 CHIS to ask
that begins at the executive level and                                     Cancer Control Modules to the National                           respondents questions about
permeates throughout the organization.                                     Health Interview Survey (NHIS) and to                            environmental tobacco smoke and
This compliance guidance is designed                                       the California Health Interview Survey                           physical activity. Frequency of
to provide assistance to all                                               (CHIS) administered in 2000. While the                           response: One-time. Affected public:
pharmaceutical manufacturers as they                                       NHIS data have proven extremely useful                           Individuals. Types of Respondents: U.S.
either implement compliance programs                                       in monitoring risk factors and screening                         adults.
or re-assess existing programs. The                                        related to cancer control, the national                            The annual reporting burden is as
essential elements outlined in this                                        sample does not provide adequate                                 follows:

                                     TABLE A.12–1.—ANNUALIZED BURDEN ESTIMATES FOR CHIS DATA COLLECTION
                                                                                                                         Estimated       Frequency of               Average time              Annual hour
                                               Data collection                                                          number of re­      response                 per response                burden
                                                                                                                         spondents

Adult Core ........................................................................................................            55,000                        1                        .42           23,100
CCM .................................................................................................................          55,000                        1                        .08            4,400

      Totals ........................................................................................................          55,000   ........................   ........................         27,500




failure to comply with applicable laws or an                                 18 The OIG has published criteria setting forth                pursuant to 42 U.S.C. 1320a–7(b)(7) for violations 

existing corporate integrity agreement, regardless of                      those factors that the OIG takes into consideration              of various fraud and abuse laws. See 62 FR 67392 

the financial impact on Federal health care                                in determining whether it is appropriate to exclude              (December 24, 1997).

programs.                                                                  an individual or entity from program participation 

